                                       Office of Inspector Ge
                                      Corporation for




                     Pre-Audit Survey of the
                 Utah Commission on Volunteers

                       OIG Report Number 04-16




                                Prepared by:

                      COTTON & COMPANY LLP
                   333 North Fairfax Street, Suite 401
                       Alexandria, Virginia 22314




This report was issued to Corporation management on July 29, 2004. Under the laws
and regulations governing audit follow up, the Corporation is to make final management
decisions on the report's findings and recommendations no later than January 29, 2004,
and complete its corrective actions by July 29,2005. Consequently, the reported findings
do not necessarily represent the final resolution of the issues presented.
                                            auditors advisors
 333 NORTHFAWAX STWET + SUITE 401 + AJ.RORIA, VIRGINIA
                                                    2231 4   703/836/6701   FAX 703/836/0941   WWWC07TOF




April 2 1,2004


Office of Inspector General
Corporation for National and Community Service


Cotton & Company LLP performed a pre-audit survey of the Utah Commission on Volunteers.
We performed this pre-audit survey in accordance with terms of the statement of work dated
February 23,2004, by and between Cotton & Company and the Office of Inspector Gener$l
(OIG), Corporation for National and Community Service.

The primary survey objectives were to evaluate the adequacy of the :

                 internal controls over grant management;

                 pre-award selection process;

                 administration of grant funds; and

                 evaluation and oversight of subgrantees.

We conducted our procedures in accordance with Government Auditing Standards issued by the
Comptroller General of the United States. We were not engaged to and did not conduct an audit
of financial statements, the objective of which would be the expression of an opinion.
Accordingly, we do not express such an opinion. Further, our procedures were not sufficient to
express an opinion on the Commission's internal control or on its compliance with laws,
regulations, contracts, and grants. Accordingly, we do not express such an opinion. Had we
performed additional procedures, other matters might have come to our attention that would have
been reported.

This report is intended solely for the information and use of the OIG and is not intended to be,
and should not be, used by anyone other than the OIG.

COTTON& COMPANY
              LLP




Sam Hadley, CPA
Partner
                                   Office of Inspector General
                         Corporation for National and Community Service
                                       Audit Report 04- 16

         Pre-Audit Survey of Corporation for National and Community Service Grants
                                       Awarded to the
                              Utah Commission on Volunteers

OIG Summary


The Office of Inspector General (OIG), Corporation for National and Community Service
(Corporation) retained Cotton & Company LLP to perform a pre-audit survey of the Utah
Commission on Volunteers (Commission). The objectives of the pre-audit survey were to
evaluate: (1) the internal controls over grant management; (2) the pre-award selection proce
(3) the administration of grant funds; and (4) the evaluation and oversight of subgrantees. 1
audit period included Program Years 2001-2002 and 2002-2003.

The Commission was awarded Corporation AmeriCorps Formula, Program Development aqd
Training, and Administrative grants totaling $4,493,378 for Program Years 2001-2002 and 1002-
2003. During the survey program years, the auditors noted the following: the internal contrdls
over claimed matching costs under the Commission's administrative grant did not ensure that
claimed costs are allowable and adequately supported, the Commission could not provide
documentation that past performance and financial information of subgrantee applicants wene
considered in the selection process, the Commission did not fully and clearly document the
subgrantee monitoring performed, and controls to ensure that AmeriCorps members were
performing only allowable activities should be improved. The auditors did not recommend 8 a t a
full-scope audit be performed. They recommended that the Corporation follow up with the
Commission to determine that corrective actions have been implemented.

The Office of Inspector General has reviewed the report and the work papers supporting the
auditors' conclusions. Our review of the auditors' work papers disclosed no instances where
Cotton & Company LLP did not comply, in all material respects, with generally accepted
government auditing standards.

The Office of Inspector General provided the Commission and the Corporation officials with a
draft of this report for their review and comment. Their responses are included in their entirety
as Appendices C and D, respectively.

Background

The Corporation for National and Community Service, pursuant to the National and Commynity
Service Trust Act, as amended, awards grants and cooperative agreements to State commiss~ons,
nonprofit entities, tribes, and territories to assist in the creation of full-time and part-time natiional
and community service programs. Currently, under the Act's requirements, the Corporation
awards approximately three-fourths of its AmeriCorps*State/National funds to State
commissions. The State commissions, in turn, fund and oversee the subgrantees that executb the
                                                                                                    I
programs. Through these subgrantees, AmeriCorps members perform service to meet
educational, human, environmental, and public safety needs.
                                                  Contents



Summary of Results.................................................................................

Background ...........................................................................................
  Corporation for National and Community Service..........................................
                                                                                                         iI
  Utah Commission on Volunteers...............................................................

Objectives, Scope. and Methodology.............................................................

Results of Fieldwork.................................................................................    I

  Internal Control ...................................................................................
  Selecting Subgrantees...........................................................................
                                                                                                         i
                                                                                                         I


  Administering Grant Funds .....................................................................        1
                                                                                                         !
  Evaluating and Monitoring Grants............................................................

Appendix A: Funding Hierarchy Flowcharts

Appendix B: Detailed Engagement Objectives and Methodology

Appendix C: Utah Commission on Volunteers Response

Appendix D: Corporation Response
                    OFFICEOF INSPECTORGENERAL
             CORPORATION
                      FOR NATIONALAND COMMUNITY
                                              SERVICE

                             PRE-AUDITSURVEYOF THE
                          UTAHCOMMISSIONON VOLUNTEERS


SUMMARY OF RESULTS

Cotton & Company LLP was engaged by the Office of Inspector General (OIG), Corporation for
National and Community Service (Corporation), to provide an assessment of systems and
procedures in place at the Utah Commission on Volunteers for administering AmeriCorps pants
and monitoring the fiscal activity of subgrantees. The primary purposes of the pre-audit survey
were to evaluate the adequacy of the:

       rn     internal controls over grant management;

              pre-award selection process;

               administration of grant funds; and

               evaluation and oversight of subgrantees.

Based on results of procedures performed, we offer the following preliminary assessments
regarding the Commission's systems for administering AmeriCorps grants:

               Internal controls over claimed matching costs under the Commission's
               administrative grant did not ensure that claimed costs are allowable and
               adequately supported.

               The Commission could not provide documentation that past performance aqd
               financial information of subgrantee applicants were considered in the selection
               process.

               The Commission did not fully and clearly document the subgrantee monito~ng
               performed.

               Controls to ensure that AmeriCorps members were performing only allowable
               activities should be improved.

The findings and recommendations presented in this report describe these matters in detail,

During the period of our pre-audit survey, the Commission's Amencorps grants were not
audited as a major program under Office of Management and Budget (OMB) Circular A-1 83.
Based on results of our preliminary assessment, we do not recommend performing a full-s
audit for Program Years 2001-2002 and 2002-2003. We recommend that the Corporation
up with the Commission to determine that appropriate corrective actions have been taken t
address conditions reported herein, and that the Corporation consider these conditions in it
future oversight and monitoring of the Commission.

BACKGROUND                                                                                     I

Corporation for National and Community Sewice                                                  i
The National and Community Service Trust Act of 1993, which amended the National and
Community Service Act of 1990, established the Corporation for National and Communit
Service. The Corporation funds opportunities for Americans to engage in service that
civic responsibility, strengthens communities, and provides educational opportunities
who make a substantial commitment to service.

The Corporation awards grants and cooperative agreements to State commissions, nonprofit
entities, tribes, and territories to assist in creating full-time and part-time national and comlnunity
service programs. Through these grants, AmeriCorps members perform service to meet
educational, human, environmental, and public safety needs throughout the nation, with sppcial
attention focused on needs related to poverty. In return for their service, program participz@ts
may receive a living allowance and a monetary award for educational purposes.

The Corporation awards approximately 75 percent of its AmeriCorps funds to State
commissions. State commissions are responsible for developing and communicating a vision
and ethic of service throughout their States.

Additionally, State commissions, acting as grantees, distribute funds to subgrantees to enable
them to administer service programs. State commissions are responsible for monitoring
subgrantee compliance with grant requirements. The commissions are also responsible for
providing training and technical assistance to service programs. State commissions are,
however, prohibited from directly operating service programs.

Utah Commission on Volunteers

The Utah AmeriCorps programs are administered by the Utah Commission on Volunteers, which
is chaired by the Lieutenant Governor of Utah. The Utah Commission is a subdivision of dhe
Department of Community and Economic Development (DCED).

The Commission operates with a five person staff: a full-time executive director, an execu
assistant, two program managers and a part-time contract specialist. To adequately
duties with limited resources, many of the financial functions of the Commission, such as
payments to subgrantees and cash management activities, are handled by the
staff.
                                                                                           I.
As part of the State of Utah, the Commission is included in the annual OMB Circular A- 13
audit. In the past three fiscal years, however, the Corporation's grants have not been selec d as
major programs, and the Commission has not received any other audits or reviews by the
The State's A-1 33 audit has received an unqualified opinion for the past several years, indi ating
that the State's documented control environment is adequate for Federal grants manageme t.
During our review, we noted that the Commission followed State procedures and internal
controls. Additionally, DCED has been subject to audits and reviews performed by its int a1
audit division. These reports did not identify any weaknesses in controls over grants
                                                                                            I
management. Therefore, while Commission grants were not specifically tested, controls
established by the State, and used by the Commission, appeared to be adequate for adminisjtering
Federal awards.

The Commission provided the following information for Program Years 2001-2002 and 20102-
2003:


                                                               Program Years
Funding Source and Type                   2001-2002        2001-2002     2002-2003      2004-2003
                                            Budget          Actual        Budget          Aqtual
Administrative Grant
PDAT
Disability
AmeriCorps-Competitive
AmeriCorps-Formula
AmeriCorps-Governor's Initiative
Promise Fellows
Education Award
State Matching Fund
Total Funding


OBJECTIVES, SCOPE, AND METHODOLOGY

The OIG engaged Cotton & Company to assess systems and procedures in place at the
Commission for administering ArneriCorps grants and monitoring subgrantee fiscal activity.
The primary purpose of this pre-audit survey was to evaluate the adequacy of the:

                internal controls over grant management;

        .       pre-award selection process;

                administration of grant funds; and

        rn      evaluation and oversight of subgrantees, including fiscal monitoring of
                AmeriCorps subgrantees, monitoring of program accomplishments and 0th
              performance statistics, and monitoring of AmeriCorps member eligibility a+d
              service-hour reporting.                                                  I
                                                                                            I
Our survey included the following procedures:                                               i

               Reviewing applicable laws, regulations, grant agreements, and provisions;

               an understanding of legal, statutory, and programmatic requirements.

               Reviewing the State's recent OMB Circular A-133 reports and other audit
                                                                                         I t
               Corporation's State Administrative Standards Tool; and other information t gain



               review reports over the DCED.

               Obtaining information from Commission management to complete the flo
               in Appendix A, which show disbursement of Corporation funding to the
               Commission for Program Years 2001-2002 and 2002-2003.

                                                                                            h
               To the extent possible, conducting inquiries, observations, investigations, a d
               examinations of a limited sample of source documents to meet the objectivds and
               methodology specified in Appendix B.

The findings and recommendations presented in this report summarize the results of our work.
We discussed all findings with Commission management during an exit conference on Apti121,
2004. We also provided a draft of this report to the Commission and the Corporation for their
responses, which are included as Appendices C and D, respectively.

RESULTS OF FIELDWORK

Internal Control

According to 45 CFR 8 2541.200@)(1), which prescribes standards for financial managenlent
systems, the Commission must maintain systems that provide "[alccurate, current, and coaplete
disclosure of the financial results of financially assisted activities." Subsection (b)(3) requires
the Commission to provide "[elffective control and accountability. . .for all grant and sub@ant
cash, real and personal property, and other assets."

A Utah State entity, the Commission follows State accounting policies and procedures and other
guidance. Additional procedures are documented in the Commission's Policies and Proc+
Manual, which contains all of the grant management policies related to Corporation grants/.

The DCED provides support to the Commission in its management of Corporation funds d
                                                                                            "E
provides additional segregation of duties. DCED processes subgrantee payments, other ac ounts
payable, drawdowns, and performs cash management functions. The State accounting system
has separate codes specific to each Federal grant to track Commission activity and to track
payments to each subgrantee.
                                                                                          t
In addition, the Commission has a separate database, called the Grants Management Info ation
System (GMIS), which tracks grant expenditures and funding availability, payments to ea h
subgrantee against the subgrantee's budget, and other grant information. To initiate a pa ent,
the Commission must provide a payment request, along with all necessary supporting
documents, to the DCED Accounting Office. The Accounting Office ensures that paymen s are
made to subgrantees only with proper approval and available grant funds. This office also is
responsible for drawdowns and prepares periodic drawdown requests based on expenditur s
incurred in each grant code. The Commission does not draw down Federal funds in advan e of
disbursement, but allows its subgrantees to advance operating expenditures required for o e
month at the beginning of each program year to initiate the program.

Issue: Internal controls over claimed matching costs under the Commission's
administrative grant did not ensure that claimed costs are allowable and adequately
supported.

The Commission recorded some revenue, instead of actual expenditures, as Commission match
for its administrative grant cost-share requirement. Additionally, it did not consistently mqintain
documentation to support the allowability of donated goods and services as well as their
valuation.

According to 45 CFR 5 2541.240, Matching or cost sharing, claimed match must be supparted
by "allowable costs incurred by the grantee." Additionally, the regulation requires matchiqg
costs to be supported and verifiable in the same manner as Federally-reimbursed costs (sudh as
invoices, time sheets, or other source documents). The regulation also requires that donatdd
services provided by employees of other organizations be valued at the regular employee gay
rates. Volunteer labor must be valued at a rate consistent with rates paid to Commission
employees for the same work, according to the regulation.

As the Commission received private funding, it recorded revenue received as match and inicluded
that amount in its claimed cost sharing on the Financial Status Reports. The Commission was
not aware that revenue must be used for allowable expenses before it can be recorded as mptch.
Additionally, the Commission maintained third-party letters and documents for in-kind semices.
Documentation for some donations did not, however, indicate how the value was determin~d,
and all necessary documentation to support the valuation was not always maintained.

Claiming revenue as match could result in unallowable matching costs claimed, or claim in^ both
revenue and expenditure amounts as match. Inadequate documentation on in-kind donatioos
could result in inaccurate valuations or claimed unallowable costs.

Recommendation: We recommend that the Commission use only actual expenditures of a
period as match and ensure that the claimed value of in-kind costs is properly supported by time
sheets, third-party certifications, or price lists from donating parties.
Selecting Subgrantees

According to 45 CFR 8 2550.80(b)(l), State commissions are required to "[aldminister a 1

                                                                                         4
competitive process to select national service programs to be included in any application t the
Corporation for funding"

The Commission administered an open, competitive process to select national service       1
subgrantees. It provided notification of available funding through a variety of sources, in


                                                                                          i
accordance with its Policies and Procedures Manual. The Commission also held pre-appl cation
training sessions to introduce AmeriCorps programs, answer applicant questions, and clari y
policies.                                                                                   1

The Commission's review committee was comprised equally of commissioners and indivi uals
                                                                                         4,
from partner organizations, such as Senior Corps and the Utah Department of Safety, who ere
experienced in managing and reviewing similar programs. They evaluated potential subgrantees
in two phases. First, each review committee member performed an independent scoring of the
application. Second, the members then conducted a general discussion of applications and,
ranked them. Commission employees also attended review sessions, to provide technical
assistance.

Guidelines for the evaluation process were provided to the review committee. Successful p ~ d
unsuccessful applicants were notified of the results, and evaluation documents were available for
review after the award process was complete.

Issue: The Commission could not provide documentation that past performance and
financial information of subgrantee applicants were considered in the selection process.

During the subgrant award process, the Commission could not provide documentation to show
that information regarding the adequacy of the applicant's financial management systems, fesults
of past OMB Circular A- 133 audits, and other past performance information gained on similar
projects were considered during the subgrant award process.

Per 45 CFR 5 2522.410(b)(2), Organizational Capacity, "the Corporation will also consid* an
organization's capacity to carry out the program based on. . . the past performance of the
organization or program"

Review committee members received all applications and documented their review of


                                                                                          !
applications. Reviewers were not, however, given information outside of the formal appli ation
to include in their review. Commission employees performed format and budget reviews f each
applicant, including a determination of whether a financial statement audit was included w'th the
application. If included, this audit was not reviewed, and the results of these format and b+get
reviews were not considered in the selection process unless the formal review resulted in a tie.

While no documentation existed to indicate that the Commission included financial manaqement
information in the selection process, it noted that employees were aware of OMB Circular A-133
findings and significant problems with financial management and actively followed up witb
                                                                                          I
subgrantees to resolve these issues in the event an award was made.                     I



Failure to include financial management history in the award process could cause the
Commission to award funding to a subgrantee with an inadequate financial system or poor
performance.

Recommendation: We recommend that the Commission evaluate all aspects of subrecipi nt
                                                                                          t
past performance and financial system adequacy, including OMB Circular A-1 33 audit res Its,
and consistently document this information in the subgrantee selection process.

Administering Grant Funds

According to 45 CFR $2550.80(d), State commissions "will be responsible for administering the
grants and overseeing and monitoring the performance and progress of funded programs."

The Commission provided reporting guidance for Financial Status Reports (FSRs), Periodic
Expense Reports (PERs), and Quarterly Progress Reports to subgrantees. Subgrantee reporting
due dates were set to allow the Commission to report to the Corporation in a timely mann*.
Late or incorrectly submitted reports would result in a 2 percent penalty of total contract mount
per week. The Commission reconciled PERs to Requests for Reimbursement submitted by the
subgrantees to ensure the accuracy of PERs. The PERs were used to automatically generdte
FSRs.

The Commission communicated document-retention requirements to subgrantees at orientation
sessions as well as during the closeout process.

As noted above, the Commission had adequate controls and segregation of duties for reimbursing
subgrantee expenditures.

Evaluating and Monitoring Grants

To comply with 45 CFR $2550.80(e), the Commission "in concert with the Corporation, dhall be
responsible for implementing comprehensive, non-duplicative evaluation and monitoring
systems."

The Commission conducted three formal site visits of subgrantees in each program year. The
site visit focused on program management and compliance issues at both subgrantee and hpst
sites. Within four weeks of a site visit, the Commission sent a follow-up review and
recommendation letter, together with site visit worksheets, to the program director. The
Commission tracked compliance issues until they were resolved.

The Commission's AmeriCorps program manager reviewed Quarterly Progress Reports
submitted online and prepared Progress Report Feedback (PRFs) letters for each subgrant
The Commission evaluated Quarterly Progress Reports to measure subgrantee
accomplishments. The Commission reviewed monthly PERs and agreed them to subgrantfe
Request for Reimbursement forms to determine the accuracy and propriety of costs. ,

The Commission had adequate controls in place to collect and review annual subgrantee ~ M B
Circular A- 133 reports.                                                                     1
Issue: The Commission did not fully and clearly document the subgrantee monitorin
performed.
                                                                                  I         a
The Commission did not maintain documentation to support all subgrantee monitoring eff rts.
Specifically:                                                                                O
                                                                                             !

       0      One site visit report and its related worksheets were missing for a subgrantee.

              Documentation was not included in subgrantee monitoring files to indicate 'which
              operating sites (i.e., the host sites) were visited or to show that corrective adtions
              in response to site visit findings were adequately addressed. For example, dite
              visits identified issues such as missing member eligibility documentation add
              inaccurate WBRS reporting of member service time; however, documentation did
              not exist in the files to show that corrective actions were taken.

According to 45 CFR 5 2541.400(a), Monitoring by grantees, grantees are responsible for
managing daily operations of grant and subgrant supported activities. Grantees must moniitor
grant and subgrant supported activities to ensure compliance with applicable Federal
requirements and ensure that performance goals are being achieved. Grantee monitoring must
also cover each program, function, or activity. In addition, AmeriCorps Provision (C)(26)
Retention of Records, require grantees to retain and make available all financial records,
supporting documentation, statistical records, evaluation and program performance data, qember
information, and personnel records for three years fiom the date of submission of the final
Financial Status Report (SF 269A).

The Commission considered subgrantee site visits a high priority, but did not consistently
document all procedures performed and retain relevant correspondence.

Recommendation: We recommend that the Commission ensure that it adequately documpnts
and maintains evidence of all monitoring activities in its program monitoring files and devklops
and maintains evidence of the timely resolution of issues identified during site visits in
subgrantee files.

Issue: Controls to ensure that AmeriCorps members were performing only allowable
activities should be improved.

Subgrantees used member contracts that deleted part or all of the list of prohibited activitiqs
noted in the AmeriCorps sample contract and provisions. The Commission did not requirq its
subgrantees to use the complete sample member contact provided by the Corporation, or ehsure
that all prohibited activities were included in the contract that was used.
Furthermore, the Commission did not have member or program director after-the-fact
certifications that members did not perform prohibited activities. The Commission educat d
subgrantees about prohibited member activities during the application process, orientation[, and
other training. Members were also educated on prohibited activities during their pre-semi e
orientation.                                                                                I

During a subgrantee site visit, the Commission documented its interviews with members o
Member Survey #1, which was used during the first of three site visits. This survey asked   f
                                                                                            h
members if they were instructed about prohibited activities, but did not ask if they had bee
asked to perform, or did perform, any of those activities. Other member surveys used for 11
three site visits asked members if they participated in fundraising activities, but did not as about
other prohibited activities.




                                                                                            I
Prohibited activities are identified in 45 CFR tj 2520.30, Prohibited Activities. Cornrnissio s are
required to implement controls to ensure that members are not performing prohibited activ ties.
Without adequate controls, the possibility exists that ArneriCorps members could have pe o m
prohibited activities.

Recommendation: We recommend that the Commission strengthen controls to ensure thdt
members do not perform prohibited activities. Possible actions could include:

               Requiring subgrantees to use a standard member contract that includes a list of all
               prohibited activities.

               Requiring subgrantees to submit their member contracts for Commission approval
               prior to use. The Commission would ensure that all prohibited activities are listed
               in the member contracts.

               Reviewing member contracts for content at the site visit.

               Using member surveys to determine if a member was asked to perform prohibited
               activities.

               Obtaining alternative certifications from members or program managers
                                                                                                                                         YDIX A
                                                                                                                                         ;e 1 o f 2
                                       Office of Inspector General
                             Corporation for National and Community Sewice
                                  State Commission Pre-Audit Survey
                                      Funding Hierarchy Flowchart


                                   Corporation for National and Community Service
                                    Funding to the Utah Commission on Volunteers
                                             For Program Year 2001-2002




AmeriCorps      AmeriCorps         AmeriCorps        AmeriCorps
 Formula        Competitive        Governor's         Education
  Funds           Funds             Initiative          Award
                                      Funds             Funds
 $85 1,973        $705,044          $534.561           $77,515

  Match            Match             Match
 $726,379         $380,507          $518,764




                      Total Corporation Funds Retained by the Commission: $297,652'

                                    Total Commission Matching Funds: $1,794,732

                         Total Corporation Funds Awarded to Subgrantees: $2,413,110




  AmeriCorps        AmeriCorps        AmeriCorps        AmeriCorps        AmeriCorps       Administrative      Disability
   Formula'         Competitive'      Governor's      :ducation Awar    Promise Fellows
                                       Initiative'

                                                          $65,729                            $169,082

     Match             Match            Match                                                 Match
    $669.300          $304,002         $423,496                                              $178,732

 Total # of SUB5 Total # of SUBS Total # of SUBS Total # of SUB
         4               3                  1               3
 Total # of Sites Total # o f Sites Total # of Sites Total # of Site!
                                                                                I                0               1                   4
                                                                        Total # o f SUBS Total # of SUBS Total # of SUBS Total of SUBS

                                                                        Total # of Sites Total # of Sites Total # of Sites Total / 6 " f ~ t e s
        32              36                 19              66                   8                0               I



Note 1: Upon receiving Corporation funding for AmeriCorps programs, the Commission set aside a maximu
1% of the total funds available for administrative use, and subcontracted out the rest of the funding to its
subgrantees. Since the amount is immaterial, it is not incorporated into this Funding Chart.
                                                                                                                                    I    of
                                                                                                                                Page 2 of 2

                                     Office of Inspector General
                           Corporation for National and Community Service
                                State Commission Pre-Audit Survey
                                    Funding Hierarchy Flowchart


                               Corporation for National and Community Service
                                Funding to the Utah Commission on Volunteers
       I                                  For Program Year 2002-2003                                                        I


                                                          I
  AmeriCorps         AmRiCorps          AmeriCorps        AmeriCorps Administrative                  Disability          PDAK
   Formula           Competitive         Education          Promise     Funds                         Funds              Funds
    Funds              Funds               Award            Fellows
                                           Funds             Funds
   $588,087           $668,199            $60,200          $ 177,000   $168,130                       $30,000           $9 1.000

    Match               Match                                                     Match
   $658,593            $384,562                                                  $168,130




                                                          T -r
                   Total Corporation Funds Retained by the Commission': $257,321

                               Total Commission Matching Funds: $1,211,285




                                       1n
                     Total Corporation Funds Awarded to Subgrantees: $1,525,295




  AmeriCorps         AmeriCorps                             AmeriCorps        Administrative       Disability           PDAT
   Formulal          Competitivel      :ducation Award'   Promise Fellows



   $549,524            $546,012            $43,943           $161.225            $168,130            $9,368            $9 1,000

    Match               Match
   $635,439            $352,570                                                  $172,830

Total # of SUB?     Total # of SUBS    Total # of SUBS    Total # of SUBS     Total # of SUBS    Total # of SUB5    Total # of SUBS
        4                   3                                     1                                      1                  I
Total # of Sites    Total # of Sites   Total # of Sites    Total # of Sites   Total # of Sites   Total # of Sites   Total # of $tes
       36                  32                                     7                                      I


Note 1: Upon receiving Corporation funding for AmeriCorps programs, the Commission set aside a maxim
of 1 % of the total finds available for administrative use, and subcontracted out the rest of the funding to its
subgrantees. Since the amount is immaterial, it is not incorporated into this Funding Chart.
                                          I
              APPENDIX
                     B                    I
                                          I
DETAILED
       ENGAGEMENT
               OBJECTIVES
                        AND METHODOLOGY
                                                                                   APPEN
                                                                                     Pagt

                                Office of Inspector General
                     Corporation for National and Community Sewice
                            State Commission Pre-Audit Suwey
                              Utah Commission on Volunteers
                     Detailed Engagement Objectives and Methodology


INTERNAL CONTROL

Our objective was to assess the adequacy of financial systems and documentation maintai
the Cornrnission to provide reasonable assurance that transactions were properly recorded
accounted for to: (1) permit preparation of reliable financial statements and federal
maintain accountability over assets; and (3) demonstrate compliance with laws,
other compliance requirements.

To achieve these objectives, we reviewed promulgated guidance as well as identified inte4al
control ol3jectives and characteristics related to the Commission's ability to ensure complislnce
with federal laws, regulations, and program requirements. We interviewed Commission a d
Utah Department of Community and Economic Development (DCED) Accounting Office
managers,,and reviewed related documents, including the Commission's Policies and Proqedure
Manual, to gain an understanding of the control environment. We also reviewed operating;
procedures in place regarding allowable costs, eligibility, cash management, matching, pedod of
availability of Corporation funds, procurement, suspension and debarment, program incoqe, and
Commission reporting to the Corporation.

We reviewed reports prepared by both Commission and DCED Accounting Office staff, svch as
accounting revenue and expenditures status reports, and Grants Management Information $ystem
(GMIS) reports, for accuracy and completeness. We compared internal documents to finaqcial
reports submitted to the Corporation as well as reports submitted to the U.S. Department of
Health and Human Services for drawdown activities. We reviewed subgrantee expenditure
reports and Commission financial reports to note controls on matching requirements.

SELECTING SUBGRANTEES

Our objective was to determine if the Commission had an open, competitive process to select
national service subgrantees. We examined policies and procedures related to assessing tht
adequacy of potential subgrantee financial systems, subgrantee controls to administer a Fegeral
grant program, and processes for preventing conflicts of interest in the selection process atithe
Commission. We also determined if the Commission's systems and controls for selecting
subgrantees appeared to be functioning as designed.

To achieve these objectives, we interviewed key Commission management and document
procedurles performed by the Commission during the pre-award financial and
                                                                                APPEY
                                                                                    Pag 2 of4



                                                                                        ?I
assessment of potential subgrantees. We also interviewed key Commission management d
documented procedures performed by the Commission to select subgrantees. Next, we ob ained
and reviewed guidance provided to selection officials and documentation supporting the
evaluation and grant awards process. We reviewed policies for selecting subgrantees in th
Commission's Policies and Procedures Manual.
                                                                                            I
                                                                                        e
To test whether the Commission's systems and controls related to selecting subgrantees w re
functioning as designed, we took a judgmental sample of applicants, including new award
recipients, renewals, and those denied funding. We then reviewed all supporting documedation,
including conflict-of-interestforms, risk assessment tools, evaluation committee packages,
correspondence, memorandums, and e-mails.

ADMINI[STERING GRANT FUNDS

Our objectives were to:

              Assess the adequacy of systems and controls used by the Commission to maintain
              appropriate financial management systems to disburse funds and track
              Commission and program expenses according to legal and grant requireme~ts.

              Determine if the Commission's organizational structure, staffing level, and
              staffing mix were conducive to effective grant administration.

              Determine if the Commission provided adequate guidance to subgrantees fbr
              maintaining financial systems, records, and supporting documentation and
              reporting subgrantee activity.

              Assess the adequacy of financial systems and Commission documentation to
              support oversight of subgrantees and required reporting to the Corporation, such
              as FSRs, enrollment and exit forms, change-of-status forms, and audit repofls.

              Determine if the Commission had procedures in place to verify the accuracy and
              timeliness of reports submitted by subgrantees.

To achieve the above objectives, we interviewed key Commission and DCED managers a d
documented policies and procedures used to administer grant funds. We also gained an
understanding of both manual and automated systems used by Commission and DCED peqsonnel
to administer grant funds. We obtained and reviewed the Commission's official policies a@d
procedurles related to administering grant funds, as established in its Policies and Procedukes
Manual.

We then discussed controls over grant expenditures and subgrantee match information wi+
Commission management. We reviewed documents supporting established controls over
matching. We also tested whether the Commission's systems and controls related to
                                                                                   APPET=X
                                                                                      Pag 3 of 4

administering grant funds were functioning as designed. We reviewed FSRs for a
sample of subgrantees to test for timeliness of submission. We also compared
on FSRs to cash drawdowns by the Commission for any material discrepancies.
                                                                                           I
EVALU.ATINGAND MONITORING GRANTS                                                           j

Our objelctives were to:                                                                   1
               Identify and assess the adequacy of systems and controls used by the Co
               to implement a comprehensive evaluation and monitoring process for its
               subgrantees.


                                                                                           ,B-
               Determine if the Commission had an established subgrantee site visit progr in
               place and assess the effectiveness of its design in achieving monitoring obj ctives.

               Determine the adequacy of Commission procedures to assess subgrantee
               compliance with Corporation regulations (e.g., eligibility of members, servjce-
               hour reporting, prohibited activities, payment of living allowances to mernuers,
               and allowability of costs claimed under grants by subgrantees).

               Assess the adequacy of Commission procedures for obtaining, reviewing, afid
               following up on findings included in subgrantee single audit reports, where
               applicable.

               Determine if program goals were established, and if program results and
               performance statistics were accurately reported and compared to these goals.

               Assess the adequacy of procedures in place to evaluate whether subgrantee
               programs were achieving their intended purposes.

To achieve these objectives, we interviewed key Commission managers and documented policies
and procledures used by the Commission for monitoring and evaluating subgrantees, including
controls over obtaining and reviewing subgrantee OMB Circular A-133 reports. We obtaioed
and reviewed Commission policies and procedures related to monitoring and evaluating
subgrantees, as established in its Policies and Procedures Manual.

To determine if established controls were in place, we judgmentally selected a sample of       I
subgrantees and reviewed monitoring documentation, including site visit monitoring
also reviewed training documents and member contracts to determine if proper
prohibited member activities was being conducted.

We tested the Commission's processes and controls related to evaluating and monitoring
subgrantees to determine if they were functioning as designed. Our testing methodology
included selecting a judgmental sample of subgrantee files and reviewing documentation to
                                                                             APPET*X
                                                                                 Pag 4 of 4

verify that policies and procedures were in place and functioning properly. We further '

from subgrantees.                                                                      it
determinted if the Commission had received and reviewed OMB Circular A-1 33 audit rep0 s
                                                                                       I


We then discussed the Corporation's Government Performance and Results Act goals wit
Commission management. For a judgmental sample, we reviewed subgrantee evaluation
ensure that they included program accomplishment information.
                                       Utah Commission on Volunteers
                                       $COT I ( I 5NOU
                                       1 \ ? ( url! ( / ) l i ( Y to1



State of Utah
0 1 I N t 4 W A l kt I<
      (JO\   CI I I O I

                                   I   June 14,2004



                                       J. Russell George, Inspector General
                                       Corp. for National & Community Service
                                       1201 New York Avenue, NW, Suite 830
                                       Washington, D.C. 20525

                                       Dear Inspector General George:

                                       We have received the draft report on the results of your pre-audit survey of khe
                                       Utah Commission on Volunteers performed by Cotton & Company LLP.

                                       It should be noted that the four preliminary assessments mentioned in the report
                                       regarding our systems for administering AmeriCorps grants could be deem&d
                                       fairly minor administrative issues - nevertheless, each of these issues have
                                       already been addressed by our Commission staff.

                                       "Internal controls over claimed matching costs under the Commission's
                                       administrative grant did not ensure that claimed costs are allowable and
                                       adequately supported' seems a bit overstated. While the auditors reviewed lsome
                                       files and came to this conclusion, we made available additional supporting
                                       documentation which could have ensured the allowability of all claimed matching
                                       costs but the auditors did not choose to review it. Additionally, the dollar amount
                                       in question was extremely small when compared with the total amount of the
                                       claimed matching costs. Lastly, in all cases of claimed matching costs, we
                                       contend that either a direct source document or a rationale with supporting
                                       information regarding how the value was determined is included. While there may
                                       be a disagreement regarding the adequacy of some small part of our
                                       documentation of matching costs, we have already reviewed and discussed this
                                       matter with accounting staff and have determined to fully ensure the allowability
                                       of all future claimed matching costs. Again, it was only a small portion of both
                                       the dollar amount and documentation at issue and this seems to be an
                                       overstatement.

                                        The statement that "The Commission did not consider the past performance and
                                       .financial information of subgrantee applicants in the selection process" is
                                        inaccurate in our opinion. While documentation of this part of the process
                                        be deemed as inadequate, in fact, staff and Review Committee members
                                        consider past              and general financial information of applicants *hen
                                        selecting new subgrantees in the most recent selection process. The lack of1
                                        documentation was due to the fact that there was no major issue lo considet for
                                        any of the applicants. Had there been a significant concern about past
 G\re
   www   IL vetoGwe
    I ROO 750 SERVE
                   Lie!
                          or   J

                                                                  L 1 ~ ! ~\Ol
                                                                              >'7\\(\l
                                                                             i l ~.(74            .
                                                                                               ~ ~ ) 0 \ ~ 1 1>    1 l i1! ! i ~0 1 ~ 1 1 ,1 1 \ 4 0 >
                                                                                     ~ ~t l - f ~ + I ! L \ I I ~ , I I ~\ ( I , ' 5 4 ()-,I   L ~ ~     l 1~1 1 - 0~,
                                                                                                                                                         III             ~ ~ ~ t L ~
                                                                                                                                                                                       Utah!
                                                                                                                                                                                       Whcrc ~ d c mconncct
performance or financial information, it would have been discussed specificqlly.
The lack of discussion about past performance meant that it was not an issue1 We
recognize that a positive control could possibly be included in the future and1 that
additional documentation of our consideration would avoid this question
altogether. In fact, we have already taken steps (including consulting Managpment
Concepts' Evaluating Federal Funds Management Capabilities of Recipient$ and
Subrecipients training course manual) to avoid any question in the future.

The statement that "The Commission did not fully and clearly document the
subgrantee monitoringperformed" could be argued. In fact, we did have tha
documentation but it was not readily accessible to auditors. It may be true that
"documentation did not exist in the [reviewed sample] files to show that
corrective action had been taken" however, the documentation did, in fact, axist
although it was located in a separate file. To avoid confusion like this, we have
already begun to rearrange our fiiing system so that ail relevant duwmixts are
found easily and that documents related to monitoring and compliance issuas are
more readily accessible.

The issue of "Controls to ensure that AmeriCorps members were performing only
allowable activities should be improved" is noted, however, it should also be
noted that there seems to be no question by auditors that suggests members and
program directors are unaware of prohibited/allowable activities. Documentation
of familiarity with prohibited and allowable activities is plentiful. AmeriCorps
members and program directors in Utah know the prohibited activities and to
avoid them. We do however, recognize that previously our Commission staff had
not specifically sought information on whether a member "had been asked to
perform any of these duties." This issue had already been addressed prior to the
on site visit of the auditors. Commission staff had previously recognized this fact
and had already begun implementing the practice of asking each member whether
they have been asked to perform or have ever performed any prohibited activities.

We appreciate the ability to comment on this pre-audit survey and the opportunity
we have to administer AmeriCorps programs in Utah. This pre-audit survey
experience effectively reinforced our self-confidence in our internal control~sover
grant management; our pre-award selection process; ihe adrninisilatiofi uf drmt
funds; and our evaluation and oversight of subgrantees. Thank you for valipating
our processes and procedures and for helping us ensure the accountability df these
federal funds.

Sincerelv.



        t Snow
~ c o t G.
To:

From:                                                    s Management

Cc:           ~ich~&uillermin, Chief F
              Rosie Mauk, Director of

Date:         July 20,2004

Subject:      Response to OIG Draft Audit Report 04- 16, Pre-Audit Survey of the
              Utah Commission on Volunteers


We have reviewed the draft Pre-Audit Survey of the Utah Commission on Volunteers.
Due to the limited timeframe for response, we have not thoroughly reviewed the report
nor followed up with the Commission to discuss the recommendations. However, we
agree with the auditor's recommendations and the Commission has agreed to implemeqt
corrective action. Within the next four months, the Corporation will follow up with the/
Commission to confirm that implementation is complete.                                 I




                        1201 New York Avenue, NW     *
                                                   Washington, DC 20525
                              202-606-5000 + www.nationalservice.org
                        Senior Corps + AmeriCorps   * Learn and Serve America                                       L
                                                                                           The Preadent's Call to Service
